Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





  A REVIEW OF HHS CHILDREN'

                   PROGRAMS





           :vCE.


                     Richard P. Kusserow
                     INSPECTOR GENERA
      I1



           q",faa         MACH 1992
                        OFFCE OF INSPECfOR GENERA
 The mission of the Office of Inspector General (OIG), as mandated by Public Law 95- 452, as
 amended. is to protect the integrity of the Department of Health and Human Servce ' (HHS)
 programs as well as the health and welfare of beneficiaries served by those programs. This
 statutory mission is carried out through a nationwide network of audits , investigations , and
 inspections conducted by three OIG operating components: the Offce of Audit Servces , the
 Office of Invcstigations , and the Offce of Evaluation and Inspections. The OIG also informs
 the Secretary of HHS of program and management problems, and recmmends courses to

 correct them.


                           OFFCE OF AUDIT SERVICE
  The OIG' s Office of Audit Servces (OAS) provides all auditing servce for HHS , either by

  co'nducting audits with its own audit resources or by overseeing audit work done by others.

. Audits examine the performance of HHS programs and/or its grantee and contractors in
 carryng out their respective responsibilities and are intended to provide independent
 assessments of HHS programs and operations in order to reduce waste , abuse , and
 mismanagement and to promote ecnomy and effciency throughout the Department.

                           OFFICE OF INTIGATIONS
 The OIG' s Office of Investigations (01) conducts criminal , civi , and admitrative
 investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
 unjust enrichment by providers. The investigative effort of 01 lead to cral      convictions,
 administrative sanctions , or civil money penalties. The 01 also overs State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid    program.


               OFFCE OF EVALUATION AN INSPECTONS
The OIG' s   Offce of Evaluation and Inspections   (OEI) conducts shor-term management and

program evaluations (called inspections) that lOCUS on isues of concern to the Department

the Congress , and the public. Tbe findings and recmmendations contained in these inpetion
report generate rapid , accurate , and up- to-date information on the effciency, wlnerabilty,
and effectiveness of departmental programs.

This report was prepared under the direction of Emile Baebel , Chef, Public Health and
Human Servce , Offce of Evaluation and Inspetions. Participating in the project was:

Susan E. Hardwick
Department of Health and Human 
                                 Servces
                OFFICE OF

           INSPECTOR GENERAL





                REVIEW OF HHS CHILDREN'

                      PROGRAMS





                                    Vl'
                                          Richard P. Kusserow
                                          INSPECTOR GENERA

                                   cIa        OEI- 12-91-01510
                   EXECUTIVE SUMMAR 

PUROSE
The purpose of this report is to consolidate recent Office of Inspector General (DIG)
findings on programs of the Department of Health and Human Servces (HHS) that
protect the health and welfare of children.

BACKGROUN
Children need adequate income , access to health care , positive opportunities for
development , and stable family environments. HHS programs touch on all these
fundamental needs. Some HHS programs have recently been expanded to provide
more servces to children , and the Administration for Children and Familes (ACF)
was created to faciltate coordination and cooperation among children s programs.

While change is underway to improve servces for children , more improvements could
be made. In the past few years , the OIG has released a number of reports
recommending management or policy improvements in the programs of the
Department that serve children. Our recommendations were targeted at improving
             ervces and program effciency and effectiveness. Agency offcials have
the quality of 


implemented some of these recommendations.

SCOPE

This report has been organized into four broad issue areas that deal with the problems
that some children face: income , health care , educational and developmental
opportunities , and living environment. In each issue area , we identify how the
Department deals with specific aspects. of these problems and the fidings of DIG
reviews.

ISUE
ADEQUATE INCOME

Maxmizing family economic self-suffciency through child support

           A specifc set of practices at the State and local level generally results in
           establishing patemity, the first step in child support.

           Many opportnities exist for improved child support collections with both AFDC
           and non-AFDC absent parents.

           Ineffective gamishment systems hamper child support collections.
       Problematic cash management practices weaken the child support program.

Reducing error and fraud in AFC

       Successful anti-fraud efforts help reduce the AFDC e"or rate.


ADEQUATE HEAll

Ensuring that States expand their eligibilty under existing Medicaid policy for
pregnant women and children

       Many barrers ext    in implementing new Medicaid policies for pregnant women
       and children.

Reducing infant mortality and morbidity .

       Prenatal and perinatal care programs can be improved by special management
       strategies.

Ensuring that children have health insurance

       Detecting and pursuing available health care for children of absent parents could
       be greatly improved.


EDUCATIONAL AN DEVELOPMENTAL OPPORTUES

Exanding and managing Head Start effectively
       The Head Start expansion poses many management challenges.

       Head Start partcipants from dysfnctional families are more difcult to serve.

Exanding the monitoring effort of Head' Start to ensure program quality
       Procedures and tools for monitoring the Head Start program are incomplete.

Ensuring that children receive high quality child care

       State child care regulations vary considerably from State to   State.
STABLE LING ENVONMENT

Identifyng potential administrative changes in the foster care system to control costs

      Administrative costs have rien   dramatically, but   most of the costs are actually for

       child placement services.


       Foster care maintenance payments are often made to ineligible children.


Improving the quality and availabilty of servces in the State child welfare      system

      Administrative barrers cause excessive delays in freeing children for   adoption.

      Placing minority children in adoptive homes often requires special practces.

Improving access to treatment and support servces for drug-exposed and abandoned
children

       Crack babies have a tremendous impact on the child welfare system.

      Many obstacles ext to placing boarder babies in adoptive homes, but some cities
      are successfl.




                                            iii
                       . . . . . . . . . . . .......
                                               . . . . . . ...........                 . .. .. .. .. .. ............................... ......... .. .. .. .....
                                                           .. .. '.. .. .. . . . . .. ........
             . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .
                                                                                                    . .                   . .
                                                                                                      . .. .. .. .. .. .. .                      ...... . .. ...
                                                                                                                                 . .. .. .. .. ....
                                                                                                                            . .. .                             . . ..
                                                                                                                                                                   .




                               TABLE OF CONTENTS

EXECUIV SUMY                                                                                                          80    D..... 0 ..".0.0",.
INODUCTION. .
ISSUES                                                                                                      . . . . . . . . . . . . . . . . . . . . . . 3

Adequate Income. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                           . . . . . . . . . . . . . . . 3

         Maxmizing family economic self-suffciency through child support. . . . . . . . . 3


         Reducing error and fraud in AFDC ............................... 5


Adequate Health Care                                                                                                                     . . . . . . . . . . . 6

         Ensuring that States expand their eligtbilty under existing Medicaid policy for

         pregnant women and children                                                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

         Reducing infant mortality and morbidity.                                                                                                                       . 7



         Ensuring that children have health' insurance . . . . . . . . . . . . . . . . . . . . . . . . 8


Educational & Developmental Opportunities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


         Exanding and managing Head Start effectively

         Exanding monitoring effort of Head Start to ensure program quality.                                                                            . . .. 



         Ensuring that children receive high quality child care


Stable Living Environment

         Identifyng potential administrative changes in the foster care system to control
         costs

         Improving the quality and availabilty of servces in the State child welfare
         system

         Improving access to treatment and support servces for drug-exposed and
         abandoned children

ENDNOTES
                           INTRODUCTION

PUROSE
The purpose of this report is to consolidate recent Offce of Inspector General (DIG)
findings on programs of the Department of Health and Human Servces (HHS) that
protect the health and welfare of children. OIG reports generally examine a specific
issue dealing with a specific program , but the range of subject matter the DIG has
examined has allowed for coverage of broad Issues and the programs related to those
issues. By consolidating the main points of these reports , we hope to provide a more
comprehensive examination of children s issues and how the Department is dealing
with those issues.

BACKGROUN
Many of today s children face significant hardships--broken familes , malnutrition,
physical and emotional abuse , disease , and lack of developmental and educational
opportunities. These hardships have been compounded by societal problems such as
drugs , povert, homelessness , and AIS. No single solution exists for the problems
that face children today. Children need adequate income , access to health care
positive opportunities for development, and stable family environments.

Programs of HHS touch on all these fundamental needs. Aid to Families with
Dependent Children (AFDC) and Child Support Enforcement (CSE) help to ensure
income security for familes. Medicaid provides health care to children. The Head
Start Program provides educational and developmental activities during the formative
pre-school years. The Foster Care and Adoption Assistance program works to ensure
that vulnerable children live in stable environments. Numerous smaller programs
address children   s needs as well.

The Secretary has a strong commitment to improving HHS programs for children as
evidenced in his Program Directions , a departmental strategic plan for dealing with
these issues now and in the near future. Almost all of the Program Directions involve
children s programs either directly or indirectly.

Some HHS programs have recently been expanded to provide more servces to
children. By FY 1991 , the Head Start program was projected to expand enrollment by
an additional 150 000 children as well as to improve the quality of servce provided.
The Omnibus Reconcilation Act (OBRA) of 1989 required all States to set a
minimum Medicaid income eligibilty threshold at 133 percent of the Federal poverty
level for both pregnant women and children below age six. OBRA 90 called for
States to annually phase in coverage for all children up to age 19 in familes with
incomes below 100 percent of povert. 2 Child care legislation was enacted in 1990
and regulations have been developed (although not yet finalized).
Another step forward for children was the creadon of the Administration for Children
and Familes (ACF), whichconsolidated the Family Support Administration. and the
Office of Human Development Servces. . Now, many of the programs that provide
servces to children are administered by one agency. The consolidation will facilitate
coordination and cooperation among children s programs.

While change is underway to improve servces for children, more improvements could
be made. In the past few years , the DIG has released a number of reports
recommending managem ent or policy improvements in the programs of the
'Department that serve children. Our recommendations were targeted at improving
the quality of servces and program efficiency and effectiveness. Agency officials have
implemented some of these recommendations.

SCOPE

This report has been organized into four broad issue areas that deal with the problems
that some children face: income, health care , educational and developmental
opportunities , and living environment. In each issue area, we identify how the
Department is involved in dealing with specific aspects of these problems and the
findings and major recommendations of DIG reviews. The following areas and
programs are covered: Child Support Enforcement , Aid to Familes with Dependent
Children , Medicaid , prenatal care, Head  tart , child care , foster care , adoption , and
drug-exposed children.
                                    ISSUES

ADEQUATE INCOME

The Department of Health and Human Servces administers two priary programs
that provide familes with income assistance and security-- Child Support Enforcement
and Aid to Familes with Dependent Children. Child support enforcement , in
reinforcing the need for individual and parental responsibilty and as a method of
offsetting the AFDC program , is a strong and important element of the Family
Support Act of 1988. The CSE program provides grants to States to enforce
obligations of absent parents to support their children by locating absent parents
establishing paternity when necessary, and establishing and enforcing child support
orders. All familes with an absent parent can receive servces from CSE, whether
they receive AFC benefits or not. Since many single- parent familes live close to the
poverty level , the regular payment of child support may be essential in avoiding
welfare dependency.

When child support is not paid or is not suffpient , AFC becomes the income source
of last resort. More specifically, a family unit becomes eligible for AFDC when a
dependent child , under 18 years of age , is deprived of parental support as the result of
a parent s death , mental or physical incapacity, loss of employment , or most common
absence from the home. With the passage of the Family Support Act of 1988, the
AFDC philosophy shifted to assisting needy children and parents in moving from
welfare dependency to self-suffciency.

The Office of Inspector General conducts reviews of the CSE and AFC programs to
ensure that eligible persons are receiving servces and benefits , and that the programs
run efficiently and effectively. DIG studies have addressed the problem of lack of
adequate income for children and familes from the perspective of (1) maxizng
family economic self-sufficiency through child support and (2) reducing error and
fraud in AFDC.

  axmizin   fam ecnomic self-sufciency though chid support
One of the main steps towards ensuring income security of children and familes is
maxmize family economic self-sufficiency through child support paid by the absent
parent , both for AFC familes and non-AFDC familes. Failure to pay child support
can have devastating economic effects on the custodial parent and children. In many
cases , welfare dependency is the only option. 3 However , even though child support is
a tremendous resource , approximately one- third of non-custodial parents do not pay
child support and many others do not pay what the court has ordered them to pay.

The crucial first step of child support enforcement is establishing paternity and the
DIG examined effective paternity establishment practices. In addition , we have also
found ways to increase child support collections through periodically and systematically
reviewing absent parent earnings and through strengthening wage garnishment
programs.

        spci set of prctes at th State an loal leel genUy res
      establihig patem, th fi      stp   in chi support

      Establishing paternity is the first step towards making certain that child support
      is paid. Different States have different approaches and practices for paternity
      establishment. However, some practices are more effective than others.
      DIG study found that successful paternity establishment is the result of the
      following practices: (1) soliciting support for the paternty   establishment
      program , (2) clarifyng responsibilty for obtaining intake information , (3)
      promoting improved parental cooperation , (4) streamlining adjudication of
      paternity establishment , and (5) instituting effective case management
      controls. 5 These practices can improve the rate of paternity establishment.

      Many    opport er for imprved chi support collctns wih both AFDC
      and non-AFDC absen parents

      We found that while AFC absent parents may have little or no earnngs when
      AFC eligibilty is initially established, their earnings generally increase over
      time. Accordingly, child support collections of AFC parents could be
      increased significantly if CSE agencies would systematically review the earnings
      of absent parents. 6 In addition, we found that a logical, systematic review of
      non-AFDC child support cases would also substantially increase child support
      collections. Some of the non-AFC cases did at one time receive AFC
      benefits and some arrearages were incurred at that time. We estimated
      between $765 and $850 milion could be collected by targeting those parents
      currently earnng over $10 000, whose cases presumably represent AFC
      arrearages stil owed. The Federal savings represented by this range would be
      approximately $245 to $270 mil on.

      We recommended that the Offce of Child Support Enforcement (OCSE)
      annually match Social Security Administration (SSA) or Internal Revenue
      Servce (IRS) records , relying on data submitted by the States. The ACF
      agreed that there is a great deal of potential for increasing child support
      collections , but ACF did not concur with the recommendation since it goes
      beyond the review and modification requirements of the Family Support Act of
      1988.

      A specific group of non-AFDC parents that we examined was Federal
      employees. We identified more than 65 000 absent parents who work for the
      Federal Government and who may owe as much as $284 milion in past due
      child support. We estimated that current annual child support payments could
      be increased conservatively by $46. 6 milion. We recommended that States
      implement immediate wage withholding. The OCSE agreed with the
     recommendation and States were to implement this requirement by November
     1990.

     Ineectie garnhm syst            ha      chi suport    collns.
     Although wage withholding is an effective method of increasing child support
     collections , employers encounter problems with garnishment systems. We
     found that Federal and non- Federal employers had systems for processing child
     support garnishments in compliance with Federal regulations , but that the
     employers encountered impediments to timely and effcient processing of child
     support garnishments. These impediments include lack of detailed guidance
     regarding State and Federal laws for child support garnishments, lack of
     standardized forms for court orders , State and court requests for data that
     require departures from their normal pay and disbursement cycles , and lack of
     electronic funds transfer capabilty. by State withholding agencies and other
     collection authorities. We determined that only one Federal and one non-
     Federal employer in our sample collected fees to cover costs of processing child
      support garnishments.



      We proposed that ACF direct State CSE agencies to establish an electronic
      fund transfer system that has the capabilty of expediting the payment process.
      The ACF has moved forward with the Electronic Funds Transfer Pilot Program
      which will transfer funds electronically to provide a seamless flow of collections
      and information from the employer to the child support agency.

      Problemati cash managem        prcties weak th chi support pram.
      Some of the cash management practices in the State CSE programs are
      problematic. In some CSE programs (1) interest and other income is not offset
      against child support expenditures , (2) controls are not adequate for handling
      unidentified payments , (3) collections are deposited untimely and/or in non-
      interest bearing accounts , and (4) un distributable/unidentified IV- D collections
      are not adequately allocated between the Federal and State Government to
      distribute the applicable Federal share. We recommended that OCSE work
      with the States to improve cash management practices. As a result , OCSE
      distributed a nationwide bulletin requesting that each State review the totality
      of their operations for weaknesses in internal control over handling
      collections.

Reducing error and fraud in AFC

Limited resources at the State and Federal levels force the AFDC program to avoid
payment errors as well as ensure that benefits go to those familes who are truly
eligible. Error control and fraud control are crucial components of the AFDC system;
 l:lt is why the DIG has focused on those areas.
       Succes ant-frud efort help rede th AFDC enr rate
       We identified three reasons some States are more successful than others in
       reducing AFC payment errors and determned those factors that prevent most
       States from meeting their AFDC error rate reduction goals. First , the threat of
       fiscal disallowances compels States to emphasize AFC      error rate reduction.
       Second , States successful in error reduction have fostered the attitude that
       every person in the AFDC network statewide is important and accountable for
       assuring accurate benefit payments.u Third, pre-entitlement fraud screening,
       as used in the California Welfare Fraud Early Detection and Prevention
       program , has been effective at reducing AFDC fraud. This program
       investigates irregularities in applications quickly and effciently, disallowing
       applicants who provide misinformation on their application. On the other
       hand , most traditional law enforcement approaches to reduce AFC fraud
       have been ineffective. As a result of the DIG study, ACF revised regulations
       effective October 1989 to require that States implement a pre-eligibilty fraud
       detection and prevention system as a condition of State plan approval.12


ADEQUATE HEATH

Medicaid is the major HHS program that helps finance health care for children when
they are not covered by private insurance. It provides grants to States for medical
care for low-income persons , the majority of which are children and familes. Each
State administers its own Medicaid program , setting eligibilty and coverage standards
within broad Federal guidelines. Within Medicaid , the Early and Periodic Screening,
Diagnosis and Treatment (EPSDT) program is specifcally for children and is designed
to assure the availability and accessibilty of required health care servces as well as
help children use servces effectively.

Other programs within the Department focus on delivering health care servces to
children and mothers. These programs include the Maternal and Child Health Care
Block Grant and the Community and Migrant Health Centers. Additionally, a special
initiative , the Comprehensive Perinatal Care Program , has provided funding to
community and migrant hea th centers , specifically for periatal care.

In addition to the specific programs that provide health care , the CSE program is
required by statute to assure that children of-absent parents are covered by the absent
parent s health insurance. This requirement has the potential to be the deciding factor
in whether a child receives health care.

The DIG reviews whether the health programs are ensuring that their servces are
accessible to eligible children and familes , run in an effective manner, and utilzed
appropriately. Recent DIG work has examined Medicaid expansions to ensure that
States effectively expand their eligibility for pregnant women. Studies have assessed
managing and implementing infant mortality programs. The DIG has also reviewed
 the CSE program s compliance with the requirement that children be covered by their
 absent parent s health insurance.

 Enurg that States exand their eligibilty under extig Medcad policy for
 pregnant women and chidren

 Lack of adequate health care for women and children prompted Congress to enact
 significant Medicaid eligibilty expansions in recent years. The Omnibus Reconcilation
  Act (OBRA) of 1986 enabled States to expand eligibilty for women to receive
  Medicaid-covered prenatal care. 13 However, we have found problems with these
. expansions.

       Many barr      ext in impleg        ne Medaid poli for pregnt wome
        and chilen.


        We found that problems exist in implementing the new Medicaid expansions.
        First , some States are not aggessively enrolling pregnant women in Medicaid
        and do little or no outreach. Next, women are not completing the
        cumbersome application process due to lengthy, complex forms and multiple
        application sites and appointments. Lastly, States have diffculty recruiting
        prenatal care providers because many providers do not accept Medicaid
        patients. This shortage of obstetricians limits States ' capacity to deliver
        adequate and timely prenatal care.

        To address these problems , we recommended that HCF A develop a
        comprehensive outreach strategy, simplify and streamline the application
        process , and develop incentives to increase provider participation.

 Reducig inant mortty      and morbidity

 In 1990 , the United States ranked 21st . among industrialized countries in infant
 mortality-- 1 deaths per 1000 live births. Although the infant mortality rates in the
 United States have decreased during the past decade , the rate of decline has slowed in
 recent years. Infant mortality rates among certain ethnic groups and in certain urban
 and rural geographic area remain highP Federal , State , and local programs exist to
 help reduce the infant mortality rate. DIG studies have examined some of these
 programs.

       Prenatal and
       strateg.
                      petal care programs can be improved by specil management
       The Comprehensive Perinatal Care Program (CPCP) provides supplemental
       funds for enhancing perinatal care systems in community and migrant health
       centers to improve the pregnancy outcomes and health status of women and
       infants served by these centers. We found that the goals and objectives set
       forth in CPCP grant proposals approved by the Public Health Servce (PHS)
       have been in accord with the intended purposes of the program. However , we
       also found that many areas of the country with high rates of infant mortality
       have not been receivg CPCP fun ds. In response to our report, PHS revised
       the grant approval process to require CPCP grantees to submit both a budget
       and a narrative report detailng the specific uses of the funds. In addition , PHS
       reexamined its approach for allocating CPCP funds to assure that these limited
       funds are targeted to areas of highest need.



       On the local level through an in- depth review of the Boston Healthy Baby
       Program , important insights we gained into how infant mortality programs can
       be managed to achieve the best results include (1) using vital statistics data to
       target geographical areas where. high risk women reside and developing
       aggressive outreach networks in those target areas using various neighborhood
       resources; (2) using a standardized screening process to identify women at high
       risk within the target area and developing program guidelines for triage
       purposes; (3) ensuring that contact with program staff occurs at time of
       screening; (4) placing first level priority on funding for clinical servces that are
       stable and adequate to meet demand and developing formal liages between
       prenatal care sites and hospitals to enhance continuity of care for each case;
       and (5) providing educational and social servces to high risk women beginning
       in the first trimester and using multidisciplinary staff to design servce plans
       based on individual client needs. . These implementation strategies can
       contribute significantly to the success of Federal , State , and local efforts to
       lower the incidence of inant mortality.

Enurg that chidren have heath inurance
Children must have health insurance to receive adequate health care. However , the
National Commission on Children estimates that 8. 3 milion children do not have
health insurance; one- half of these children live below the povert line. Medicaid
covers only an estimated 59 percent of. poor children. 20 Some children lack coverage
because the parents ' employers do not provide health insurance. 21 However, many
children belong to familes in which an absent parent may be eligible for health
insurance through an employer that could provide coverage for the employee
children. Although required by law, this does not always happen. As a result , the
children may remain uninsured , or, if eligible , they may receive Medicaid , thus making
Medicaid the primary payer. We have examined this issue of absent parent liabilty in
depth and found significant room for improvement.

             purg
      Detectig and            availble health care   for chilen of absent             coul
       be greatly improved                                                  parents



       To ensure health coverage for children , the DIG found that State CSE agencies
       should petition for including medical support as part of all child support orders.
       This would allow State Medicaid programs to avoid expenditures for medical
       servces for the children of these covered absent parents and could result in
       Medicaid program savings of $33 milion annually. 22 23 We then determined
       that, as of June 1 , 1990, only 46 percent of State CSE programs had criteria
       developed by State Chid Support Enforcement agencies to target cases with
       high potential for medicai support and to identify the most effective criteria and
       practices , as Federal regulations require. Further, we found that less than half
       of the 54 States can modify existing court orders for the sole purpose of
       including medical support.

       We recommended that ACF enforce current regulations regarding targeting
       medical support and place additional emphasis on its importance. As a result
       the requirement for States to develop criteria is now being audited for
       substantial compliance , and the review of targeting criteria is now included in
       the Program Results Audit Guide. The ACF has also since issued regulations
       that state that the availabilty of reasonably priced insurance must be treated as
       adequate grounds for petitioning for modification of the support order.

       Additionally, a loophole exists for some absent parents due to the Employee
       Retirement Income Security Act of 1974 (ERISA). Because self- insurers are
       exempt under ERISA from State regulation of insurance , ERISA prevents
       States from assuring that many AFC dependent children are covered under
       their absent parents ' group health insurance plans. The pool of self-insurers
       has grown considerably since passage of ERISA, increasing the signficance of
       this gap in coverage. In 1985 , almost half of firms with 100 employees or more
       were self-insured , doubling the figure from four years earlier. As more and
       more businesses self- insure , the exposure for the Medicaid program in fiancing
       health care for employees and their children grows. We recommended that
       HCFA and ACF address ERISA preemption problems when drafting a
       legislative proposal to require States to prohibit discrimination in insurance
       plans on the basis of residence.


EDUCATIONAL AN DEVLOPMENTAL OPPORTUNIES

HHS funds programs that provide developmental and educational activities for
children that might not have them otherwse. Foremost of these programs is Head
Start , providing comprehensive educational , nutritional , social, health and other
services primarily to low income preschool children and their familes. It has recently
been expanded to include many more children and to strengthen the program.

HHS funds a number of child care programs. The major new program resulted from
the passage of the Child Care and Development Block Grant Act of 1990. This block
grant will provide financial assistance to low-income familes to help them find and pay
for quality child care. It will also improve the quality and increase the supply of child
care available to all families. 26 Other child care programs include At- Risk   Child

Care , JOBS Child Care , Transitional Child Care , and many smaller programs such as
Comprehensive Child Development Centers , Child Care Licensing Grants , Dependent
Care Grants ,   Temporary Child Care and Crisis Nurseries , and Child Development
Scholarships.

As with all HHS programs , the Inspector General has oversight authority of the Head
Start program. The OIG conducts reviews of the Head Start program to ensure that
it provides quality servces to eligible children and monitors the effectiveness and
efficiency of its management. To that end , we have examined the program
responsiveness to familes with many problems, its management and monitoring, and
its capacity for expansion. Additionally, with the growing number of child care
initiatives and concern over the quality and safety of care , we have also examined
enforcing State child care regulations.

Exanding and managig Head Sta effecely
Because of the recognized need for educational and developmental activities , Congress
increased funding for the Head Start program from $1.24 bilion in FY 1989 to $1.95
bilion in FY 1991. Total enrollment was expected to increase from 451, 000 chidren
to nearly 600 000 children. 27 In recent years , Head Start staff have expressed
concern over the growing number of multiproblem familes enrollng in the program.
Because of the severe nature of the problems in some of the famies , they are unable
to benefit fully from the Head Start program. 28 Both the rapid expansion and the
participants from dysfunctional familes pbse management challenges for the Head
Start program , and we examined these areas to assist ACF in meeting these
challenges.

      Th   Head Start   exnsn poes     many    managem chaUeges.
      We assessed the Head Start system s capacity to successfully manage the rapid
      enrollment expansion and found that it presents problems. First , grantees are
      meeting enrollment expansion goals but are experiencing problems in obtaining
      suitable space. They believe that more lead time for expansion implementation
      will help resolve this problem. Additionally, grantees express more optimism
      than Federal staff that enrollment expansion wil improve the quality of
      servces. Both regional and headquarters     Head Start staff claim a serious lack
      of resources to assist and assess grantees in upcoming expansions , as well as a
      lack of timely information on grantee enrollment progress.

      In response to the study, ACF added 13 additional staff members to
      headquarters in FY 1991 , and more staff will be added in the regional offices if
      the budget permits. The ACF also stated that every effort will be made to
      provide more lead time to grantees , and to track expansion progress , a data
      collection system is being considered.

      As an additional check on the management capacity of Head Start grantees , we
      analyzed the results of over 1 200 nonfederal audits of individual grantees
      conducted in the three y ars prior to the expansion. As a result , we were able
        to alert the Head Start program to problems of accountabilty, grants
        management, and cash management. We recommended that the ACF
        reevaluate all important aspects               of financial management and accountabilty,
        inc1uding technical assistance ,              monitoring, financial reporting, trackig audit
        reports , and audit resolution. We also recommended financial management
        capabilty reviews for new grantees and traini g and oversight to correct
        persistent deficiencies.



        Hea Start partpant frm dysftinal fami                            are more   di    to sere.

        For many reasons Head Start participants from dysfunctional familes are more
        difficult to serve. Dysfunctional. familes face serious physical , mental , and
        social problems. These comprehensive needs of dysfunctional familes create
        special challenges for Head Start grantees , but almost all grantees believe that
        Head Start is the best program for children from dysfunctional families despite
        additional demands placed on staff. Income guidelines , performance standards
        and lack of resources limit grantees ' abilty to serve some of the children from
        dysfunctional familes who are not eligible for Federal "safety net" programs.
        We recommended that Head Start revise its enrollment criteria to provide
        greater flexibilty to enroll children from dysfunctional familes and use its
        discretionary grant authority to develop ways of providing better access to
        community resources and to develop and test new and better approaches for
        Head Start grantees to assist dysfunctional familes.

Exanding monitorig effort of Head Sta to ensure progr quaty
Program monitoring is essential for a successful Head Start program. Section 651 of
the Head Start Act requires ACF to perform periodic evaluations and cost analyses to
measure program impact as well as Head Start agencies ' abilty to perform grant
activities.

        Procedes and tools                 for   monirig the Head Start prom are inomplete.
        We found that monitoring the Head Start program is dificult because ACF has
        not established or implemented procedures necessary to measure performance
        of Head Start agencies. Although performance standards have been
        established , ACF has not developed the needed criteria to determne the extent
        of an agency s compliance with these standards. Also , ACF has not formalized
        procedures needed to effectively manage high risk agencies in its program
        instructions. Because of this , we recommended that ACF establish and
        implement improved procedures to assure that the extent of an agency
        compliance with the performance standards is determined and used as a basis
        for establishing uniform ratings for agencies. 33 ACF agreed with our
        recommendation and plans to continue to make improvements in the Head
        Start monitoring system which is ACF' s most important mechanism for assuring
        program compliance.
       Monitoring is also diffcult because the data maintained on the management
       information systems utilized in the Head Start program is incomplete. The
       incomplete data raise concerns as to their accuracy and usefulness to program
       offcials for evaluating program performance, analyzing operating costs , and
       assisting in making decisions about program administration.34 As a result
       ACF currently has underway several efforts which will improve inormation
       systems.

       The statute requires every Head Start grantee to conduct an annual self-
       assessment of its program , but the regulations do not provide guidance on how
       self-assessment should be done. Despite the lack of guidance , we found that
       virtually all grantees are conducting self-assessment annually, as required.
       Nearly all grantees use the Self Assessment Validation Instrument (SA VI) for
       conducting self-assessment , but many have concerns about its length
       complexity, and comprehensiveness.

Ensurg that chidren recive high quaty chid cae
As a result of the changing demographics of the work force , more children are placed
in day care , and they should receive high quality care that provides developmental
opportunities. To that end   , the   hild Care and Development Block Grant (P. L.   101­
508) was enacted on November 5 , 1990. ' States are required to use at least 20 percent
of the block grants funds to improve the quality of child care provided. Areas where
States may use the funds are monitoring and complyig with State and local licensing
and regulatory requirements. 36 We examined current State regulatory enforcement
efforts in child care as well as effective State enforcement practices.

       State chi   care r      ti1l vary   consbly frm State to State.
       Regulations regarding child care arrangements varied significantly among the
       States. Many tyes of settings were not regulated. Even when a setting was
       regulated , the nature and force of the regulations varied in such areas as health
       and safety requirements , child care staff requirements and staff- to-child ratios.
       Enforcing the regulations that did exist was just as problematic; inspections
       were time consuming and legal sanctions were diffcult to enforce , even in cases
       of imminent danger.

       We also identified effective practices which States should consider adopting to
       improve their enforcement of existing regulations. These practices included
       administrative closures , consent agreements , investigative protocols , inspection
       review techniques , monetary incentives and penalties , and training and technical
       assistance for providers.

STABLE LWNG ENVONMENT

Many HHS programs seek to promote family preservation and to protect vulnerable
children living in unstable envionments. Title E of the Social Security Act or
Foster Care and Adoption Assistance reimburses States for the cost of maintenance
payments and administrative costs associated with running the program. In the
adoption assistance portion of Title N-E, HHS reimburses States for administrative
costs incurred in running the program and for adoption subsidies to familes who
adopt special needs children. The Title N;.BChild Welfare Servces Program funds
servces designed to protect and promote children s welfare, prevent abuse and
neglect , promote family preservation , and place children in suitable adoptive homes
when family preservation is not possible. The Title XX Social Servces Block Grant is
another major source of funding for social servces that can help create a stable
environment for children.

The DIG has focused on the effectiveness , efficiency, and quality of foster care and
child welfare servces. But. we have explored the human aspect as well. One specific
population that we have examined is the drug-exposed infant.

Identig potential a dministrtie                         changes         in the foster cae sytem to    control costs


Growing congressional and departmental concern exists over the rapid rate                                  of cost
escalation in the foster care program. Before any changes can be made to provide
expanded or new servces to children , costs must be brought under control in the
current program. Two areas of foster care show great potential for cost savigs-­
administrative costs and unallowable maintenance payments--and we have examined
these areas in detail.

       Admistratie costs have rien dfa11tiall, but mot of th costs                                   are   actull for
       chil placemt seres.
       Foster care administrative costs rose from $143 milion in FY 85 to $400                                  milion
       in FY 88. Two primary reasons have caused the administrative costs to
       increase: (1) the              expanded definition of allowable activities under Title

         L. 96- 272 and (2) a broad interpretation of that definition by the
       Departmental Appeals Board (DAB). The DAB ruled that Federal Financial
       Participation (FFP) was allowable for preplacement and other costs incurred
       for children not yet determined to be eligible for foster care maintenance
       payments. Only 20 percent of these administrative costs , however , relate to
       administering the foster care program. The other 80 percent of the
       administrative costs are actually child placement servces , allowed under P.
       96- 272. Thus , relative to foster care , the term " administrative costs " is a
       misnomer because it includes activities related to the delivery of social servces.
       The States ' practices for maxmizing Federal reimbursement have resulted in
       significant increases in Title 
     costs. This trend is expected to continue as
       more States become sophisticated in capturing additional costs. We
       recommended that legislative action be taken to limit Federal participation.
       FY 1991, Congress enacted requirements to States to separately report
       placement costs but did not enact cost containment provisions.3

       Foste carl! mainnce         pa
                                            are   oft ma to ingile chien
       Under Title IV-       , FF is allowed for foster care maintenance payments to a
       child when certain conditions are met. We found in New York that 67 percent
       of maintenance payments-- $141.3 milion ($70. 6 milion Federal share )--were
       unallowable for FFP. Further , DIG estimated that at least $61.4 millon ($30.
       milion Federal share) of claimed administrative costs associated with ineligible
       maintenance payments were also unallowable for FFP. 40 In the District of
       Columbia , we found that 76 percent of claimed foster care maintenance
       payments-- $l1.8 million ($5. 9 millon Federal share) was iieligible for FF.
       We attributed this extremely high rate of ineligibilty to a widespread disregard
       of Federal regulations and the District of Columbia s Departent of Human
       Servces ' own policies and procedures. We recommend that the States
       reimburse the Federal Government for these unallowable foster care
       maintenance costS.

Improvig the qualty and avaabilty of servce in the State chid welfare sytem
To fully protect children in families that have problems , the servces provided by the
child welfare system must be improved. When a child cannot be returned to his or
her original home , then proceedings begin for adoption. Waiting to be adopted can
be difficult for children , but the adopti( m process can be improved to make it easier
for the children , the courts , and the child welfare system. We have identified some
problems in the foster care and adoption system.

      Admistratie barr cause exese                delas in freeg   chien for adptin.
       Administrative barrers in the child welfare     system cause the most excessive
       delays in freeing children for adoption. Under P. L 96-272, a State cannot
       obtain Federal foster care funds for a child unless reasonable efforts to
       maintain the child in the family were made. Continued Federal funding is
       contingent upon a State making re.asonable efforts to reunite familes. The
       specific definitions of " reasonable efforts to maintain and to reunite " are left to
       the State. The primary barrier to implementing permanent plans of adoption
       was the inability of the child welfare agencies to meet the " reasonable efforts
       standard to the satisfaction of State courts in a timely manner. Also , long- term
       planning is often made after the child has been in care for considerable
       periods , and limited management commitment and lack of staff and servces
       playa significant role in the failure to make " reasonable efforts.
       Many barrers and delays also arise from the legal and judicial systems. Case
       records do not contain legally acceptable documentation of the "reasonable
hospital delivery, perinatal care, and foster care to just these 8 974 children
through age 5 will cost approximately $500 milion. Additional interventions
cost considerably more. For example , Florida estimates an annual cost of over
$40 000 per child to get crack babies ready for school. Even costs after age 5
will be substantial because special education, residential treatment , juvenile
detention , etc. are all costly.

Not only is care for crack babies costly, but crack baby cases also are more
time consuming and more complex than the average child welfare case
requiring extensive tracking and follow-up, interagency coordination , and
professional case management. Fift to 75 percent of identified crack babies go
home with their mother or relative , and an estimated 30 to 50 percent go into
foster care. Many children may be left with their natural parents because no
foster placements are available.

In response to our report , ACF co-sponsored a national conference with the
Maternal and Child Health Bureau in PHS on prenatal substance abuse
exposure and is developing educational material for child welfare workers. The
PHS is conducting a national evaluation of the different approaches utiled to
reduce drug abuse. The Offce of Substance Abuse Prevention and the Office
Maternal and Child Health are jointly funding demonstration grant projects that
focus on prevention , education , and treatment of pregnant and postpartum
women and their infants. The National Institute on Drug Abuse has funded
treatment research demonstration projects which include intensive prenatal
outreach , drug treatment for women , and developmental assessment and follow-
up for the prenatally drug expo ed infants.


Many obstacle ext to   placig board babie in adptie home, but some
are   suces
Boarder babies , infants who remain in the hospital even though medically ready
for discharge , usually have serious medical problems which are often due
fetal exposure to drugs. Babies also stay in the hospital due to questions about
the parents ' abilty to care for the babies and lack of care alternatives. A
number of complex legal obstacles to placement of these babies also exist , such
a establishing legal abandonment and terminating parental rights. Some of the
12 cities visited have been successful in making timely placements. Their
successes have resulted in significant decreases in hospital overstays and the
number of boarder babies.
                                  , ,," ""




                                  ENDNOTES

1. Omnibus Reconcilation Act of 1989, Public Law 101-239.
2. Omnibus Reconcilation Act of 1990 ,        Public Law 101- 964.

3. National    Commission on Children, " Beyond Rhetoric: A New American Agenda
for Children and Familes " 1991 , p. 99.
4. National    Commission on Children , p. 97.

5. Office of Inspector General         Effective Paternity Establishment " OAI- 06-89- 00910
January 1990.

6. Office of Inspector General         Follow Up of AFDC Absent Parents " OEI- 05- 89­
01270 , August 1991.

7. Office of Inspector General         Child Support Enforcement of Non-AFC      Clients
OAI- 05-88- 00340 , June 1989.

8. Office of Inspector General         Improvements in CSE Collection Process Could
Generate Milions     " A- 12- 89- 00154 , October 1989.

9. Office of Inspector General         Garnishment Orders for Child Support " A- 12- 91­
00016 , June 1991.

10. Office of Inspector General Cash Management by State Child Support
Agencies " A- 12- 91- 000l8 , July 1991.

11. Office of Inspector General Errors Resulting in Overpayment in the AFDC
Program " OAI- 04- 86- 00024 , June 1987.


OAI- 04- 86- 00066, November     1987.
12. Office of Inspector General State Investigation of Fraud in the AFDC Program


13. Omnibus Reconcilation Act of 1986 ,. Public Law 99- 509.
14. Office of Inspector General Access to Medicaid- Covered Prenatal           Care:
Management Advisory Report " OEI- 06- 90- 00162 , October 1990.
15. Office of Inspector General Medicaid Exansions for Prenatal Care: State and
Local Implementation " OEI- 06-90- 00l60 , February 1992.

16. National   Commission on Children ,      p. 119.


17. Office of Inspector General Comprehensive Perinatal Care Program " OEI- Ol­
90- 00460 , November 1990 ,   p. 1.
                                  ,,, """ , "




18. " Comprehensive   Periatal Care Program.

19. Office of Inspector General, ' 'Lcal Management and Implementation Strategies
to Reduce Infant Mortality: A Management Advisory Report " OAI- 01-88- 01420 , July
1989.

20. National   Commission on Children ,         p. 136.


21. National   Commission on Children ,         p. 135.


22. Offke of Inspector General Child Support Enforcement and Absent Parent
Medical Liabilty, " OAI- 07- 86-00045 , Septem er 1987.
23. Offke of Inspector General Coordination of Third Part Liabilty Information
between CSE and Medicaid " OAI- 07- 880086, December           1989.
24.    Offke of Inspector General State Child Support Enforcement Criteria for
Targeting Medical Support " OEI- 07-90- 00120, August 1991.
25. Office of Inspector General Effect of ERISA on State Insurance Laws " OEI- 12­
91- 01420 , September 1991.

26. Child Care and    Development Block Grant Act of 1990, Public Law 101- 508.
27. Office of Inspector General Readiness to Exand Head Start Enrollment " OEI­
02-91- 00741 , August 1991, p. 1.

28. Office of Inspector General   Dysfunctional Familes in the Head Start Program
OAI- 09-89- 01000 , November 1989 , p. 2.

29. "Readiness to Exand Head Start Enrollment.
30. Offke of Inspector General Head Staff: Summariation of Grantee Audit
Problems " A- 07-91- 00425 , January 1992.

31. " Dysfunctional Familes in the Head Start Program.

32. Head Start Act , Public Law 97- , as amended by P. L      101- 120   and P. L.   101- 501.

33. Office of Inspector General Head Start Performance Evaluation and High Risk
Determinations " A- 04- 90- 00009 , February 1991.
34. Offke of Inspector General Opportunities for Improved Management Efficiency
of the Head Start Program , Automated Management Information Systems " A- 04-90­
00012 , February 1991.

35. Office of Inspector General       Head Start Self-Assessment " OEI- 04-89- 00790
February 1991.
                                  ,, ""




36. Child Care and    Development Block Grant , Public. Law 101- 508.

37. Office of Inspector General, "Enforcing    Child Care Regulations " OEI- 03- 89­
00700, February 1990.

38. Office of Inspector General Effective Practices in Enforcing Child Care
Regulations " OEI- 03-89- 00701 , February 1990.

39. . Office of Inspector General Opportunities for Cost Containment by Modifyng
Federal Reimbursement to States for Administrative Costs Under the Foster Care
Program, " OAI- 05-87- 0012 , October 1987.

40. Office of Inspector General Review of Foster Care Maintenance Payments
Claimed Under 'ritle IV- E of the Social Security Act: New York " A- 02- 87- 020l6
June 1990.

41. Office of Inspector General Review of Foster Care Maintenance Payments
Claimed Under Title IV-E of the Social Security Act: District of Columbia " A- 03-88­
00551 , August 1990.

42. Office of Inspector General Barrers to Freeing Children for Adoption,' OEI- 06­
89- 01640 , February 1991.

43. Office of Inspector General Minority Adoptions " OAI- 02- 88- 00640, June 1988.
44. Office of Inspector General       Crack Babies   " OEI- 03-89- 01540, June 1990 ,   p. 1.


45. " Crack Babies.
46. Office of Inspector General       Boarder Babies: A Management Advisory Report,"
OEI- 03- 89- 01541 , June 1990.
